U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 23, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Israel Torres v. United States,
S.Ct. No. 20-5579

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 27,
2020, and placed on the docket on September 2, 2020. The government’s response is due on
October 2, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 2, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5579
TORRES, ISRAEL
USA

DANIEL LEE KAPLAN
OFFICE OF THE FEDERAL PUBLIC DEFENDER
850 WEST ADAMS STREET
STE. 201
PHOENIX, AZ 85007
602-382-2767
DAN_KAPLAN@FD.ORG

